                           OFFICE O F INSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                                  AUDIT O F THE
                         CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE'S
                     FISCAL YEAR 2001 FINANCIAL STATEMENTS

                               OIG Audit Report Number 02-01
                                      March 15,2002




                                            Prepared by:

                                            KPMG L L P
                                        2001 M Street, N.W.
                                       Washington, D.C. 20036

                       Under the Corporation for National and Community Service
                                   Purchase Order # 200107160002
                                     GS Contract # GS-23F-8127H
                                          Task Order # 00-01




This report was issued to Corporation management on March 15,2002. Under the laws and
regulations governing audit follow up, the Corporation is to make final management decisions on
the report's findings and recommendations no later than September 11,2002, and complete its
corrective actions by March 17, 2003. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                               CORPORATION
                                  Office of Inspector General                                  FOR NATIONAL
                        Corporation for National and Community Service
                                                                                                SERVICE
                Audit of the Corporation for National and Community Service's
                             Fiscal Year 2001 Financial Statements
                                    OIG Audit Report 02-01


Introduction

In accordance with the Government Corporation Control Act (3 1 U.S.C. 9101 et seq.), the Office of
Inspector General engaged KPMG LLP to audit the Corporation for National and Community Service's
fiscal year 2001 financial statements. This report presents the results of the audit. In summary,

        KPMG's opinion on the financial statements is unqualified.

        KPMG noted certain matters involving the internal control over financial reporting and
        its operations that were considered to be a reportable condition. However, KPMG and
        OIG agree that this reportable condition, more specifically described in Exhibit I, is not
        a material weakness. In contrast, the FY 2000 audit noted one material weakness
        relating to grants management.

        No instances of material non-compliance with laws and regulations were found.

As is our responsibility, CNCS OIG participated in the planning of the auditors' work and evaluated the
nature, timing and extent of the procedures performed, monitored progress throughout the audit, and
reviewed the auditors' report and the work papers supporting its conclusions, with which we concur.

We provided a draft of this report to the Corporation for their review and comment. The Corporation's
response indicates that the Corporation's financial operations are strong and positioned to handle growth
and changes. The response also indicates that the Corporation will reassess their monitoring tools to
address the report's recommendations. The response is presented in its entirety as Appendix A.




                                                                                           Inspector General
                                                                                           1201 New York Avenue, NW
                                                                                           Washington, DC 20525
                2001 M Street, N.W.
                Washington, D.C.20036




                             Independent Auditors' Report on Financial Statements


Office of the Inspector General
Corporation for National and Community Service:


We have audited the statements of financial position of the Corporation for National and Community
Service (the Corporation) as of September 30, 2001 and 2000, and the related statements of operations and
changes in net position and cash flows for the years then ended. These financial statements are the
responsibility of the Corporation's management. Our responsibility is to express an opinion on these
financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audits to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Corporation at September 30, 2001 and 2000, and the results of its operations,
changes in net position, and cash flows for the years then ended, in conformity with accounting principles
generally accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our reports dated March 8, 2002
on our consideration of the Corporation's internal control over financial reporting and its compliance with
laws and regulations. Those reports are an integral part of an audit conducted in accordance with
Government Auditing Standards, and should be read in conjunction with this report in considering the
results of our audit.




March 8,2002




 1111             KPMG LLP KPMG LLP a U S llm~tedlhabllhty partnership 8s
                  a member of KPMG internal>onal a SWISS assoclatlon
                   Corporation for National and Community Service
                          Statements of Financial Position
                                 As of September 30
                                           (dolkrrs in thousands)


                                                                        2001
ASSETS
  Fund Balance with Treasury (Note 2)                               $   825,962
  Trust Investments and Related Receivables (Note 3)                    307,688
  Advances to Others                                                     22,25 1
  Accounts Receivable, Net (Note 4)                                       3,070
  Property and Equipment, Net (Note 5)
     Total Assets


LIABILITIES
  Trust Service Award Liability (Note 6)
  Grants Payable
  Accounts Payable
  Actuarial FECA Liability (Note 9)
  Other Liabilities
  Accrued Annual Leave
  Commission Post-Service Benefits Liability (Note 7)
  Advances from Others
  Capital Lease Liability (Note 8)
     Total Liabilities


Commitments and Contingencies (Notes 8 and 16)

NET POSITION
  Unexpended Appropriations
   Obligated
   Unobligated
  Cumulative Results of Operations
     Total Net Position (Note 10)


      Total Liabilities and Net Position




           The accompanying notes are an integral part of thesefinancial statements.
                  Corporation for National and Community Sewice
                Statements of Operations and Changes in Net Position
                        For the Years Ended September 30
                                      (dollars in thousands)


                                                                   -
                                                                   2001               -
                                                                                      2000
REVENUES
  Appropriated Capital Used, excluding Trust Fund              $   683,886      $     611,641
  Appropriations Received by the Trust Fund (Note I I)              69,846             70,000
  Interest                                                          18,949             21,514
  Revenue from Services Provided                                     5,934              6,044
  Other                                                                301                173
      Total Revenue                                            $   778,916      $     709,372


EXPENSES
  ArneriCorps
  National Senior Service Corps
  Service-Learning Program
      Subtotal
  Congressionally Earmarked Grants
  DVSA State Grants
  Office of the Inspector General
      Total Expenses (Note 12)


EXCESS OF REVENUES OVER EXPENSES                               $    12,220      $        388

NET POSITION
  Excess of Revenues over Expenses                         $        12,220
  Increase in Unexpended Appropriations, Net (Note 14 & 17)          5,332
  Non-Operating Changes:
   Permanent Rescission of Trust Funds (Note 15)                   (30,000)
   Reclassification of Net Position (Note 17)                       (1,978)
  Decrease in Net Position, Net                                    (14,426)
  Net Position, Beginning Balance                                  906,074
  Net Position, Ending Balance                             $       891,648




          The accompanying notes are an integral part of thesefinancial statements.
                         Corporation for National and Community Service
                                     Statement of Cash Flows
                             For the Year Ended September 30,2001
                                             (dollars in thousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Excess of Revenues over Expenses

Adjustments Affecting Cash Flow:

 Appropriated Capital Used                                            $   (683,886)
 Appropriations Received by Trust Fund                                     (69,846)
 Increase in Accounts Receivable                                               (12)
 Decrease in Interest Receivable                                               306
 Decrease in Advances                                                        2,597
                                                                                      (750,841)

 Decrease in Accounts Payable and Other Liabilities                   $     (1,629)
 Increase in FECA and Annual Leave Liabilities                                 308
 Decrease in Commission Liability                                             (777)
 Decrease in Capital Lease Liability                                           (64)
 Decrease in Trust Liability                                                (642 1)
 Increase in Grants Payable                                                  9,369
                                                                                          586

 Amortization of Premium/Discount on Investments              $              1.628
 Depreciation, Amortization, and Loss on Disposition of Assets               1,237
                                                                                         2,865

Total Adjustments                                                                                     (747,390)

Net Cash Used by Operating Activities                                                             $   (735,170)

                                                                                                      (continued)




                 The accompanying notes are an integral part of thesefinancial statements.
                         Corporation for National and Community Service
                                     Statement of Cash Flows
                             For the Year Ended September 30,2001
                                              (dolkrrs in thousands)




Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid




                  The accompanying notes are an integral part of thesefinancial statements.
                         Corporation for National and Community Service
                                     Statement of Cash Flows
                             For the Year Ended September 30,2000
                                             (dollars in thousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Excess of Revenues over Expenses

Adjustments Affecting Cash Flow:

 Appropriated Capital Used
 Appropriations Received by Trust Fund
 Decrease in Accounts Receivable
 Decrease in Interest Receivable
 Decrease in Advances


 Increase in Accounts Payable and Other Liabilities
 Increase in FECA and Annual Leave Liabilities
 Decrease in Commission Liability
 Decrease in Capital Lease Liability
 Increase in Trust Liability
 Increase in Grants Payable


 Amortization of Premium/Discount on Investments
 Loss on Treasury bond recall
 Depreciation and Amortization


Total Adjustments

Net Cash Used by Operating Activities

                                                                                            (continued)




                 The accompanying notes are an integral part of theseJinancia1statements.
                         Corporation for National and Community Service
                                     Statement of Cash Flows
                             For the Year Ended September 30,2000
                                             (dollars in thousands)



CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid

Supplemental Schedule of Financing and Investing Activity

  Equipment Acquired Under Capital Lease Obligations




                  The accompanying notes are an integral part of thesefinancial statements.
Corporation for National and Community Service
Notes to the Financial Statements
NOTE I   - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. Basis of Presentation

These financial statements have been prepared to report the financial position, results of operations, and cash flows
of the Corporation for National and Community Service (the Corporation), as required by Section 9106 of the
Government Corporation Control Act and by the National and Community Service Act of 1990, as amended. These
financial statements have been prepared from the books and records of the Corporation in accordance with generally
accepted accounting principles and include the Corporation's activities related to providing grants and education
awards to eligible participants. The Corporation is not subject to income tax.
The principal financial statements of the Corporation are the:

         Statement of Financial Position;

         Statement of Operations and Changes in Net Position; and

         Statement of Cash Flows.

The notes to the financial statements are considered an integral part of the financial statements.

B. Reporting Entity
The Corporation was created by the National and Community Service Trust Act of 1993 (Public Law 103-82). The
Corporation provides grants and other incentives to states, local municipalities, and not-for-profit organizations to
help communities meet critical challenges in the areas of education, public safety, human needs, and the
environment through volunteer service. The Corporation oversees three national service initiatives:

         AmeriCorps is the national service program that engages more than 50 thousand Americans of all ages and
         backgrounds in full-time and sustained part-time community service and provides education awards in
         return for such service.

         The National Senior Service Corps is a network of more than 500,000 people age 55 and older who
         participate in the Foster Grandparent Program, the Senior Companion Program, and the Retired and
         Senior Volunteer Program. These programs tap the experience, skills, talents, and creativity of America's
         seniors.

         Service-Learning supports and promotes service learning in schools, universities, and communities.
         Through structured service activities that help meet community needs, nearly one million students improve
         their academic learning, develop personal skills, and practice responsible citizenship.
Together, these initiatives promote the ethic of service and help solve critical community problems in every state,
many Indian tribes, and most U.S. territories.

C. Budgets and Budgetary Accounting

The activities of the Corporation are primarily funded through two separate appropriation bills. One is the
Labormealth and Human Services bill, which funds Domestic Volunteer Service Act (DVSA) programs. The
DVSA appropriation is available for obligation by the Corporation for one fiscal year only.

The second is the Veterans Affairs, Housing and Urban Development, and Independent Agencies bill, which funds
National and Community Service Act (NCSA) programs. The NCSA appropriation is available for obligation by the
Corporation over two fiscal years.
Corporation for National and Community Service
Notes to the Financial Statements
Both the DVSA and the NCSA appropriations fund a part of the Corporation's costs for admmistrative operations.
In addition, part of the NCSA appropriations are provided for the National Service Trust (the Trust), a fund within
the Corporation used to provide education awards to eligible participants. The Trust provides awards for
AmeriCorps members under AmeriCorps*State and National, AmeriCorps*NCCC, and AmeriCorps*VISTA as well
as for the AmeriCorps Education Award Program, where sponsoring organizations are responsible for providing
member subsistence and other costs, and the Corporation provides an education award and a small amount for
admmistrative costs.

D. Basis of Accounting

Transactions are recorded in the accounting system on an accrual basis and a budgetary basis. Under the accrual
method of accounting, revenues are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash. Appropriations are considered earned for the Corporation's
National Service Trust Fund and are recognized as revenue when received in the Trust Fund.

The recognition of budgetary accounting transactions is essential for compliance with legal constraints and controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction.
Thus, the financial statements differ from other financial reports submitted pursuant to Office of Management and
Budget directives for the purpose of monitoring and controlling the use of the Corporation's budgetary resources.

E. Fund Balance with Treasury

The Corporation does not maintain cash in commercial bank accounts. Cash receipts and disbursements are
processed by the U.S. Treasury. The Fund Balance with Treasury represents annual, multi-year, and no-year funds,
which are maintained in appropriated and trust finds that are available to pay current and future commitments.

Funds maintained in the National Service Trust are restricted for use in paying service awards earned by eligible
participants, and are not available for use in the current operations of the Corporation. The majority of the funds
received from individuals and organizations in the form of gifts and donations for the support of service projects are
restricted for a particular use.

F. Trust Investments and Related Receivables

By law, the Corporation invests funds, which have been transferred to the Trust, only in interest-bearing Treasury
obligations of the United States. These Treasury obligations are referred to as market-based specials, which are
similar to government securities sold on the open market, and consist of Treasury notes, bonds, bills and one-day
certificates.

The Corporation classifies these investments as held-to-maturity at the time of purchase and periodically re-
evaluates such classification. Securities are classified as held-to-maturity when the Corporation has the positive
intent and ability to hold securities to maturity. Held-to-maturity securities are stated at cost with corresponding
premiums or discounts amortized over the life of the investment to interest income. Premiums and discounts are
amortized using the effective interest method.

Interest receivable represents amounts earned but not received on investments held at year-end. Pre-paid interest is
the amount of interest earned on a security since the date of its last interest payment up to the date the security is
purchased by the Corporation. Such interest, if any, at year-end is included in the interest receivable balance.
Corporation for National and Community Service
Notes to the Financial Statements
G. Advances to Others

The Corporation advances funds, primarily in response to grantee drawdown requests, to facilitate their authorized
national and community service and domestic volunteer service activities. The cash payments to grantees, in excess
of amounts earned under the terms of the grant agreements, are accounted for as advances. At the end of the fiscal
year, the total amount advanced to grantees is compared with the Corporation-funded amount earned by the
grantees. Grantee expenses are determined from reports submitted by the grantees. For those grantees with
advances exceeding expenses, the aggregate difference is reported as the advance account balance.

H. Accounts Receivable

Accounts receivable represents amounts due to the Copration primarily under Federal and non-Federal reimbursable
agreements, grantee audit resolution determinations, and outstandmg travel advances due from employees. These amounts
are reduced by an allowance for uncollectible accounts based on the age of each past due account.

I.   Property and Equipment
The Corporation capitalizes property and equipment at historical cost for acquisitions of $10 thousand or more, with
an estimated usefbl life of two or more years. The assets reported include telephone equipment, computer systems
equipment, copiers, computer software, furniture, and assets under capital leases. These assets are depreciated (or
amortized) on a straight-line basis over estimated useful lives ranging from two to 10 years, using the half-year
convention. Normal maintenance and repair costs on capitalized property and equipment are expensed when
incurred.

J. Trust Service Award Liability
The Trust service award liability represents unpaid earned, and expected to be earned, education awards and eligible
interest forbearance costs, which are expected to be used. These amounts relate to participants who have completed
service or are currently enrolled in the program and are expected to earn an award, based on the Corporation's
historical experience.

K. Grants Payable

Grants are made to non-profit organizations, education institutions, states, municipalities, and other external
organizations. Grants become budgetary obligations, but not liabilities, when they are awarded. At the end of each
fiscal year, the Corporation reports the total amount of unreimbursed authorized grantee expenses, earned under the
terms of grant agreements, as grants payable.

L. Accounts Payable
The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a transaction or event
that has already occurred. Accounts payable represents amounts due to both Federal and non-Federal entities for
goods and services received by the Corporation, but not paid for at the end of the fiscal year.

M. Actuarial F'ECA Liability
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational disease,
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Corporation employees under FECA are administered by the Department of Labor (DOL)
and later billed to the Corporation. The Corporation's actuarial liability for workers' compensation includes costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by current appropriations.
Corporation for National and Community Service
Notes to the Financial Statements
N. Other Liabilities

Other liabilities include amounts owed but not paid at the end of the fiscal year for payroll and benefits; VISTA
stipends; and the portion of the liability for Federal Employees' Compensation Act charges incurred and billed but
unpaid.

0 . Accrued Annual Leave
Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end. Each year, the
balance in the accrued annual leave account is adjusted to reflect current year pay rates and leave balances. Annual
leave is funded from current appropriations when used. As unused annual leave is used in the future, frnancing will
be obtained from appropriations current at that time. Sick leave and other types of non-vested leave are expensed
when used.

P. Commission Post-Service Benefits Liability

The Commission post-service benefits liability represents unpaid earned education awards incurred by the former
Commission on National and Community Service, which has been managed by the Corporation since 1994. This
liability, more fully discussed in Note 7, is funded by the Corporation when a request for payment is made.

Q. Advances from Others

Advances from others consist of advances from other government agencies related to interagency agreements the
Corporation entered into to provide services to those agencies.

R. Net Position

Net position is composed of unexpended appropriations and cumulative results of operations. Unexpended
appropriations are funds appropriated and warranted to the Corporation that are still available for expenditure as of
the end of the fiscal year. Cumulative results of operations represent the net differences between revenues and
expenses from the inception of the Corporation.

S. Revenues

    Appropriated Capital Used

The Corporation obtains funding for its program and operating expenses through annual and multi-year
appropriations. Appropriations are recognized as an accrual-based financing source at the time they are used to pay
program or administrative expenses, except for expenses to be fimded by future appropriations such as earned but
unused annual leave. Appropriations expended for property and equipment are recognized as a financing source
when the property is purchased. Funds not used for eligible expenses within the allowed time must be returned to
Treasury. Appropriations received for the Corporation's Trust are recognized as revenue when received in the Trust
Fund. Trust appropriations do not expire with the passage of time and are retained by the Corporation in the Trust
until used for eligible education service award purposes.

    Interest

Interest income is recognized when earned. Treasury notes and bonds pay interest semiannually, based on the stated
rate of interest. Interest earned on Treasury bills is recognized at maturity. Interest income is adjusted by
amortization of premiums and discounts using the effective interest method.
Corporation for National and Community Sewice
Notes to the Financial Statements
    Revenue fiom Services Provided

The Corporation also receives income from reimbursable service agreements that is recorded as revenue from
services provided. Revenue from services provided is recognized when earned, i.e., goods have been delivered or
services rendered.

    Other Revenue

Other revenue consists of gifts and donations for the support of service projects from individuals and organizations
plus gains on dispositions of investments.

T. Retirement Benefits

The Corporation's employees participate in either the Civil Service Retirement System (CSRS) or the Federal
Employees Retirement System (FERS). FERS was established by the enactment of Public Law 99-335. Pursuant to
this law, FERS and Social Security automatically cover most employees hued after December 3 1, 1983. Employees
hired prior to January 1, 1984, elected to join FERS and Social Security or remained in the CSRS.

For employees covered by CSRS, the Corporation contributes 8.51 percent of their gross pay towards retirement.
For those employees covered by FERS, the Corporation contributes 11.50 percent of their gross pay towards
retirement. Employees are allowed to participate in the Federal Thrift Savings Plan (TSP). For employees under
FERS, the Corporation contributes an automatic one percent of basic pay to TSP and matches employee
contributions up to an additional 4 percent of pay, for a maximum Corporation contribution amounting to 5 percent
of pay. Employees under CSRS may participate in the TSP, but will not receive either the Corporation's automatic
or matching contributions.

The Corporation made retirement contributions of $991 thousand and $993 thousand to the CSRS Plan, and $5,008
thousand and $4,580 thousand to the FERS and TSP Plans in fiscal years 2001 and 2000, respectively.

U. Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period. Actual results could
differ from these estimates.

V. Reclassifications

Certain fiscal 2000 amounts have been reclassified to conform to the fiscal 2001 presentation.
Corporation for National and Community Service
Notes to the Financial Statements
NOTE 2 - FUND BALANCE WITH TREASURY

U.S. Government cash is accounted for on an overall consolidateld basis by the IJ.S. Department of Treasury. The
Fund Balance with Treasury line on the Statement of Financial Position consists of the following:

        Appropriated Funds - Appropriated funds are received through congressional appropriations to provide
        financing sources for the Corporation's programs on an annual, multi-year, and no-year basis. The funds
        are warranted by the United States Treasury and apportioned by the Office of Management and Budget.

        Trust Funds - Trust Funds are accounts designated by law for receipts earmarked for specific purposes
        and for the expenditure of these receipts. Funds from the Corporation's Trust Fund may be expended for
        the purpose of providing an education award or interest forbearance payment and must always be paid
        directly to a qualified institution (college, university, or other approved educational institution, or a lending
        institution holding an existing student loan) as designated by the participant.

        Gift Funds - Gift Funds are funds received from individuals and organizations in forms of gifts and
        donations for the support of service projects.




 ~ i sFunds
        t
 Gift Funds




NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES

The composition of Trust Investments and Related Receivables at September 30 is as follows:




 Matured 1nvestGnt Receivable
 Investment and Interest Receivable



The Matured Investment Receivable amount at September 30,2000, includes two investments that matured on
Saturday, September 30,2000, but were not redeemed by Treasury until the first business day of fiscal 2001.
Corporation for National and Community Service
Notes to the Financial Statements




1 Bills               37,359           398              --      37,757      2617 17          415              -     271132   1


At September 30,2001, the notes held at year-end had an interest rate range of 5.50% to 7.50% and a maturity
period of approximately 31 days to almost four and a half years. Interest rates on bonds ranged from 10.75% to
14.25% and had a maturity period of approximately six months to almost four years. The bills held at year-end had
an interest rate range of 2.06% to 3.62% and were all due to mature within 120 days. The par values of these
investments range from $506 thousand to $27,917 thousand.

Investments held at September 30 mature according to the following schedule:




I   Due after 1 year up to 5 years
    Due after 5 years up to 10 years
    Total
                                              172,278
                                                   --
                                             $303,277
                                                              182,574
                                                                   --
                                                             S315.702
                                                                                   209,473
                                                                                    18.821
                                                                                  $306.146
                                                                                                     18.767
                                                                                                   $304976




NOTE 4 -ACCOUNTS RECEIVABLE, NET




I Less: allowance for loss on receivables                                   244                294   1
    Accounts Receivable, Net                                             $3,070              suk%!
Corporation for National and Community Service
Notes to the Financial Statements
NOTE 5 - PROPERTY AND EQUIPMENT, NET




NOTE 6 - SERVICE A WARD LIABILITY - NATIONAL SERVICE TRUST

Individuals who successfully complete terms of service in AmeriCorps programs earn education awards, which can
be used to make payments on qualified student loans or for the cost of attendance at qualified educational
institutions. The awards, which are available for use for a period of up to seven years, are paid from the National
Service Trust. The Trust also pays forbearance interest on qualified student loans during the period members
perform community service as well as awards under the President's Student Service Scholarship program. The
award liability components related to education awards and interest forbearance have been adjusted, based on
historical experience, to reflect the fact that some eligible participants
                                                                     -     may not use these benefits. The service award
liability was composed of the following as of septeGber 30:




 Interest forbearance
 Student scholarship award
 Total service award liability
 Less: cumulative awards aid
 Total                                                                       $186.414              $193,035


The net service award liability as of September 30,2001, decreased by approximately $6.6 million from the net
service award liability as of September 30,2000. This decrease was largely due to a decrease in the overall
estimated percentage of awards to be used based on historical experience.
Corporation for National and Community Sewice
Notes to the Financial Statements

NOTE 7 - POST-SERVICE BENEFITS LIABILITY, COMMISSION ON NATIONAL AND COMMUNITY
SERVICE
The Commission on National and Community Service (Commission) was merged into the Corporation for National
and Community Service during fiscal year 1994. With this merger, the Corporation became responsible for all
Commission liabilities, including those for post-service benefits.
Post-service benefits liabilities from the former Commission's operations differ from those originating within the
Corporation in three significant respects:

         the grantee, rather than an agency of the Federal government, is responsible for making post-service award
         payments;

         the portion of these awards which is funded by the Federal government is specified in each grant
         agreement, with any remaining amount funded by the grantee; and

         the post-service period during which an award is available for use was established by each program
         grantee, rather than set at seven years for all awardees.
The post-service benefits liability associated with the former Commission is estimated based on a review of its
grants that authorize post-service benefits. Amounts shown below represent the aggregate maximum liability under
the assumption that all funds obligated for post-service benefits remain payable to grantees for this purpose until
they are drawn down or the period of award availability has expired.




 Less: drawdowns and adjustments
 Potential education awards
Corporation for National and Community Service
Notes to the Financial Statements
NOTE 8 - CAPITAL AND OPERATING LEASES
A. Capital Leases

The Corporation has entered into lease agreements for copy machines. These leases vary from 3 to 5 year terms and
are deemed to be capital leases. The costs of the copiers have been recorded as property and equipment (also see
Note 5). The following is a schedule by year of the future minimum payments under these leases:




 Fiscal Year 2002
 Fiscal Year 2003
 Fiscal Year 2004
 Total future minimum lease payments




B. Operating Leases

The Corporation leases office space through the General Services Administration (GSA). GSA charges the
Corporation a Standard Level Users Charge that approximates commercial rental rates for similar properties.
Additionally, the Corporation leases motor vehicles on an annual basis through GSA under an Interagency Fleet
Management Service agreement for the National Civilian Community Corps. Commitments of the Corporation for
future rental payments under operating leases at September 30,2001, are as follows:




                                                             ~,
 Total           $231871       pi771                      $29,591       $22.042        $5.185        $948       $28.175
Corporation for National and Community Service
Notes to the Financial Statements

NOTE 9 - WORIYERS' COMPENSATION

The Corporation's actuarial liability for future workers' compensation benefits (FECA) was $12,637 thousand and
$12,265 thousand as of September 30,2001 and 2000, respectively. The amount includes the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The actuarial liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefit
payments have been discounted to present value using the Office of Management and Budget's economic
assumptions for 10-year Treasury notes and bonds.



NOTE 10 - NET POSITION

The reported net position consists of unexpended appropriations and cumulative results of operations (cumulative
results of operations represents the differences between revenues and expenses since the Corporation's inception).
Component balances are separately maintained for the Gift Fund, Trust Fund and Appropriated Fund.




I   Cumulative results of operations                    67         140.023           (17.840)             122.250    1
    Total Net Position                                             140.023        S 765,984'           $906,074




NOTE 11 -APPROPRIATIONS RECEIVED BY THE TRUST FUND

Fiscal 2001 appropriations received by the Trust Fund of $69.8 million are composed of $70 million appropriated
per Public Law 106-377, net of the $154 thousand Trust portion of the current year rescission to NCSA per Public
Law 106-554. The Trust portion of the NCSA rescission was transferred back to NCSA, reducing the net amount of
appropriations received by the Trust Fund during fiscal 2001. Fiscal 2000 appropriationsreceived by the Trust Fund
of $70 million are pursuant to Public Law 106-74.
Corporation for National and Community Sewice
Notes to the Financial Statements
NOTE 12 - EXPENSES

Using an appropriate cost accounting methodology, the Corporation's expenses have been allocated among its major '
programs.

          The AmeriCorps (AC) responsibility segment includes grant expenses, as well as direct and allocated
          personnel and administrative costs, for the VISTA, NCCC, State & National, and AmeriCorps recruitment.

          The National Senior Sewice Corps (NSSC) responsibility segment includes grant expenses, as well as
          direct and allocated personnel and administrative costs, for the Foster Grandparent Program, Senior
          Companions Program, and the Retired and Senior Volunteer Program.

          The Service-Learning Program (L&S) responsibility segment includes grant expenses, as well as direct
          and allocated personnel and administrative costs, for the Learn & Serve America Program, the President's
          Student Service Challenge, and National Service Leader Schools.

          The National Service Award line item consists of the Corporation's estimated expense for education
          awards based on the increase in its service award liability during the year as well as interest forbearance
          costs on qualified student loans during the period members perform community service. No indirect costs
          have been allocated this line item.

          The Corporation's annual appropriation includes various Congressionally Earmarked Grants. No
          indirect costs have been allocated to these grants.

          The Corporation has reimbursable agreements with state agencies whereby the Corporation awards and
          administers grants to a list of grantees selected and funded by the State. No indirect costs have been
          allocated to these grants.

          The Office of the Inspector General (OIG) receives a separate appropriation. No indirect costs have been
          allocated to the OIG.

The costs of operating the Corporation's Volunteers in Service to America (VISTA), National Civilian Community
Corps (NCCC), grant programs and providing administrative support for Trust Fund operations are included in the
operating expenses of the Corporation. The largest component of total expense is awarded funds expended.


                    Components of Awarded Funds Expended for tbe years ended September 30
                                           (ddiars in thOu$ands)
                                                                                         2001                   2000
    Domestic Volunteer Service Act Programs                                             $202,581               $192.134
    National and Community Service A C Programs
                                        ~
    Congressionally Earmarked Grants
I   DVSA
    -      . ...- ~ f a n t q
       - - State
           -~                                                                                 . .-
                                                                                              778                    . .-
                                                                                                                    '748    I
    Total Grants Expense                                                                $537322                $467.943
Corporation for National and Community Sewice
Notes to the Financial Statements




   Awarded funds expended
   VISTA & NCCC stipends & benefits
   Service award expense
      Total Grant and Related Expense

Administrative Expense
  Federal employee salaries & benefits
  Travel & transportation
  Rent, communications, & utilities
  Program analysis & evaluation
  Printing & reproduction
  Other services
   Supplies & materials
   Loss on disposition of assets
  Depreciation & amortization
  Bad debt
  Other
      Total Administrative Ex~ense                                                                   -   - -7    -
Total Expenses by Type                     $510:283   $186:471       4         $ 5 ; ~    $13,479    $766.696

                          Expei~gesby Type for the year ended September 30,2000
                                          (doIlsys lh th9usytfq)
                                                              ,w t                       Eulnrrkcd
                  me                         AIC       NsSC              l&S   OIG        Graata         Total
                                                                                                         -
Grant and Related Expense
  Awarded funds expended
  VISTA & NCCC stipends & benefits
  Service award expense
     Total Grant and Related Expense

Administrative Expense
   Federal employee salaries & benefits
   Travel & transportation
   Rent, communications, & utilities
   Program analysis & evaluation
   Printing & reproduction
   Other services
   Supplies & materials
   Loss on Treasury bond recall
   Depreciation & amortization
   Bad debt
   Other
      Total Administrative Expense
Total Expenses by Type                     @16&6      $138666        &&98      slk5        58,219    !i708~904
Corporation for National and Community Sewice
Notes to the Financial Statements
NOTE 13 - NA TIONAL SER VICE A WARD EXPENSE

Members participating in the Trust programs are eligible to earn a service award to pay for qualified education
expenses. The Trust also pays interest forbearance costs on qualified student loans during the period members
perform community service. The Corporation estimates the expense for national service awards based on the
increase in its service award liability during the year (see Note 6). The total service award liability as of September
30,2001 and 2000, respectively, has been adjusted to reflect the fact that earned awards are not always used.




 Increase in estimated interest forbearance
 Increase in Student scholarshiv awards                                                                           J
 National Service Award ~ G e n s e                                                     $77.424        $83.971




NOTE 14 - INCREASE IN UNEXPENDED APPROPRIATIONS, NET




 Appropriations received, net of trust
 OIG Supplemental Appropriation
 Reclassification of Net Position (see Note 17)
 Total Increases

 Decreases:
 Appropriated capital used, net of trust
 Rescinded appropriations, net of trust
 Canceled appropriations
 Total Decreases
 Increase in Unexpended Appropriations, Net                                          5.332            S 41,759



NOTE 15 - TRUST FUND RESCISSION

In fiscal 2001 and 2000, respectively, $30 million and $81 million of amounts previously appropriated under the
National and Community Service Act of 1990 (Act) and transferred to the National Service Trust were rescinded.
One million of the $8 1 million rescinded in fiscal 2000 was provided to the OIG in a supplemental appropriation for
use in its current operations. The rescissions permanently reduced the amount available under subtitle D of title I of
the Act (42 U.S.C. 12601 et seq.) for the disbursement of education awards.
Corporation for National and Community Service
Notes to the Financial Statements
NOTE 16 - CONTINGENCIES

    Contingencies
The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by or
against it, including threatened or pending litigation involving labor relations claims, some of which may ultimately
result in settlements or decisions against the Corporation. In the opinion of the Corporation's management and legal
counsel, there are no proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.

     Judgment Fund
Certain legal matters to which the Corporation is named a party may be administered and, in some instances,
litigated and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal Tort
Claims Act settlements or awards pertaining to these litigations are funded from a special appropriation called the
Judgment Fund. Although the ultimate disposition of any potential Judgment Fund proceedings cannot be
determined, management does not expect that any liability or expense that might ensue would be material to the
Corporation's financial statements.


NOTE 1 7 -RECLASSIFICATION OF NET POSITION

During fiscal 2001, the Corporation filly reconciled its budgetary and proprietary accounts, which resulted in the
need to reclassify cumulative results of operations and unexpended appropriations (see Note 14) by approximately
$2 million.
                2001 M Street, N.W
                Washington, D.C. 20036




             Independent Auditors' Report on Internal Control over Financial Reporting


Office of the Inspector General
Corporation for National and Community Service:


We have audited the financial statements of the Corporation for National and Community Service (the
Corporation) as of and for the year ended September 30, 2001, and have issued our report thereon dated
March 8, 2002. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.
In planning and performing our audit, we considered the Corporation's internal control over financial
reporting by obtaining an understanding of the Corporation's internal control, determining whether these
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards. The objective of our audit was not to provide assurance on
the Corporation's internal control. Consequently, we do not provide an opinion on internal control over
financial reporting.
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Corporation's ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or more
of the internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected.
We noted a certain matter, described in Exhibit I, involving the internal control over financial reporting and
its operation that we consider to be a reportable condition. However, we do not believe that the reportable
condition presented in Exhibit I is a material weakness. Exhibit I1 presents the status of prior year
reportable conditions.

We also noted other matters involving internal control and its operation that we will report to the
management of the Corporation in our management letter, which will be issued as OIG Audit Report
02-02.




 1111             KPMG LLP KPMG LLPa U S l h t e d lkabhty partnetshlp 1s
                  a member of KPMG lnternat~onala Swcss assmatian
We provided a draft of this report to the Corporation. The Corporation's response to our report is included
as Appendix A.
As required by the Government Corporation Control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and
Budget, the Comptroller General of the United States, and the Corporation for National and Community
Service and its Inspector General, and is not intended to be and should not be used by anyone other than
these specified parties.




March 8,2002
                                                                                                  Exhibit I


monitor in^ of Grantee Activities
The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer Service
Act (DVSA) grants to state and local governments, institutions of higher education, and other not-for-profit
organizations. For the fiscal year ended September 30,2001, the Corporation awarded approximately $680
million to grantee organizations. These organizations are responsible and accountable for expenditure of
funds awarded in compliance with the terms of their NCSA or DVSA grant agreements, and with other
laws and regulations applicable to federal award programs. The financial information provided to the
Corporation from these grantees supports the reported amounts of grants receivable and payable and grant
expenses included in the Corporation's annual financial statements.
The Corporation is responsible for monitoring the financial and programmatic compliance of its grantees
with laws, regulations, and grant agreements. Such monitoring should include procedures to ensure
grantees are provided with clear guidance on how compliance can be achieved, follow-up with grantees
throughout the grant award period to identify and resolve potential areas of non-compliance, and effective
grant closeout procedures to determine whether costs incurred were in accordance with the terms of the
grant award document.

The Corporation has established formal grantee monitoring procedures that include periodic site visits to
grantees, a process for obtaining, reviewing, and issuing management decisions on audit findings reported
by the Office of Inspector General and by nonfederal auditors in OMB Circular A-133 single audit reports,
training conferences for grantee personnel, open lines of communication between program managers and
grantees, and a grant closeout process. However, we noted that some of these monitoring activities are not
as effective as they should be. Specifically:

            Grantee Compliance Monitoring - The Corporation has several grantee monitoring tools in
            use. For DVSA grants, it utilizes the Senior Corps Compliance Monitoring Handbook. For
            NCSA grants, the State Commission Administrative Standards Review is the primary tool for
            monitoring State Commission grantees. The Corporation also has a separate monitoring tool
            for National Direct grantees. In addition to these standard tools, the Grants Management
            Office (GMO) uses a financial monitoring tool for selected reviews it deems necessary based
            on risk analyses.
           Given the variety of monitoring tools, it is sometimes difficult to assess whether the
           procedures that should have been conducted during site visits were actually performed.
           Further, the standard monitoring tool used for National Direct grantees is designed primarily to
           evaluate programmatic activities, and does not specifically include procedures to assess
           financial activities, such as adequacy of documentation supporting Financial Status Reports
           and compliance with matching requirements. None of the tools include procedures to assess
           the adequacy of controls over input of information submitted via the Corporation's Web Based
           Reporting System (WBRS). We also noted that the GMO tools are not required to be and have
           not been consistently used during site visits.

           Grant Closeout Activities - The Corporation has contracted with an outside contractor to assist
           in the closeout of its backlog of NCSA grants expired in prior years. Our review of selected
           grants being closed out by the contractor indicated various exceptions requiring adjustments to
           the Corporation's accounting records. Further, we noted that the Service Centers are not
           always closing out DVSA grants within 180 days as required. Timely grant closeouts should
           be performed as the ultimate verification that information previously recorded in the
           accounting records and relied on as support for the amounts presented in the financial
           statements was accurate.
                                                 25
                                                                                     Exhibit I, Continued


Recommendations:

          Consider requiring the use of the GMO monitoring tools that have been developed and that the
          completed tools documenting the site visit results be maintained in the official site visit files.
          Consistent use of the tools would assist management in evaluating grantee performance over
          time.
          Incorporate additional procedures into both the GMO and State Administrative Standards
          monitoring tools to ensure that the additional financial and internal control matters discussed
          above are addressed during site visits. Consider modifying the State Administrative Standards
          tool for use on National Direct grantee site visits, since it already includes a number of
          procedures related to financial compliance.
          Evaluate whether special reports could be designed and obtained from WBRS or Momentum
          to flag conditions at grantees that require special attention during site visits, and to assist
          management in identifying those higher risk grantees requiring more frequent site visits.
          Develop a consistent method of identifying expired grants, particularly those where grantee
          monitoring has indicated a higher risk for error exists, and enforce timely administrative
          closeout of these grants. Consider whether special reports from WBRS or Momentum can be
          developed to notify program managers of grants that are approaching their expiration date.
          Implement procedures to closeout all expired grants in a systematic and timely manner to
          ensure adjustments resulting from the closeout process are recorded in the proper period, and
          to avoid adding to the backlog of grants requiring closeout from previous years. Develop
          timelines for the Service Center staff to request any missing closeout documentation required
          prior to the grant expiration date to ensure that grants can be closed in a timely manner.
                                                                                       Exhibit I1

                       Corporation for National and Community Service
                         Status of Prior Year Reportable Conditions


FY2000 Finding                                  Type              FY2001 Status
                                                                  -                                     --   -
Grants Management - A comprehensive             2000 - Material
                                                                  The Corporation has made progress in
system of internal control for grants           Weakness
                                                                  strengthening controls in the grants
management is not in place.
                                                                  management area. However, additional
                                                2001 -            improvements in the monitoring of grantee
                                                Reportable
                                                                  financial activity and related reporting
                                                Condition
                                                                  should be made.
                                                                  This finding has been revised to reflect
                                                                  progress made during fiscal year 2001, and
                                                                  has been reduced to a reportable condition
                                                                  for 200 1.
Net Position - Adequate procedures are not      2000 -
                                                                  During fiscal 200 1, the Corporation
in place for ensuring that the components of    Reportable
                                                                  investigated and resolved the differences in
unexpended appropriations (both obligated       Condition
                                                                  unexpended appropriations between the
and unobligated) are accurately accounted
                                                                  budgetary and proprietary accounts. In the
for and reported in the financial statements.   2001 - Closed
                                                                  September 30,2001 trial balance, there
                                                                  were no differences between the
                                                                  unexpended appropriations proprietary
                                                                  account and the sum of the related
                                                                  budgetary accounts.
                                                                  The Corporation has taken action to correct
                                                                  this finding; thus it is considered closed.

Fund Balance with Treasury - Significant        2000 -            During fiscal 2001, the Corporation has
differences continue to exist, at the           Reportable
                                                                  investigated and materially resolved
appropriation level, between the                Condition
                                                                  differences resulting from prior year
Corporation's records and those maintained
                                                                  transactions.
by the Treasury, primarily as a result of       200 1 - Closed
transactions occurring in years prior to                          The Corporation has taken action to correct
fiscal year 2000.                                                 this finding; thus it is considered closed.
                2001 M Street, N.W.
                Washington, D.C. 20036




              Independent Auditors' Report on Compliance with Laws and Regulations


Office of the Inspector General
Corporation for National and Community Service:


We have audited the financial statements of the Corporation for National and Community Service (the
Corporation) as of and for the year ended September 30, 2001, and have issued our report thereon dated
March 8, 2002. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.
The management of the Corporation is responsible for complying with laws and regulations applicable to
the Corporation. As part of obtaining reasonable assurance about whether the Corporation's financial
statements are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with laws
and regulations was not an objective of our audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph
disclosed no instances of noncompliance that are required to be reported under Government Auditing
Standards.
As required by the Government Corporation Control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and
Budget, the Comptroller General of the United States, and the Corporation for National and Community
Service and its Inspector General, and is not intended to be and should not be used by anyone other than
these specified parties.




March 8, 2002




                                                                           28

 1111                                                     partnershtp 1s
                  KPMG LLP KPMG LLP a U S llm8ted l~abll~ty
                  a member of KPMG lnlernatlonal a Swlss assoclatlon
               APPENDIX A




CORPORATION FOR NATIONAL SERVICE RESPONSE
                                                           CORPORATION

                                                           FOR NATIONAL




    March 11,2002

    Terry Bathen,
    Deputy Inspector General for Audit
    Corporation for National and
     Community Service

    Dear Mr. Bathen:

           Thank you for the opportunity to comment on the draft report on the audit of the
    Corporation's fiscal 2001 financial statements. The Corporation is pleased that, for a
    second year in a row, it will receive an unqualified opinion on its financial statements.
    More importantly, areas identified as material weaknesses have been reduced from ten in
    1996 to zero in the fiscal 2001 audit. This has been a remarkable turnaround for the
    organization, and shows that the Corporation has demonstrated a commitment to strong
    management controls and a sound financial system. The Corporation's financial
    operations are strong and we are well positioned to handle growth and changes in our
    programs. However, we recognize that more needs to be done to maintain these results
    and build on this success. To that end, we will reassess our monitoring tools to address
    the recommendations made in the audit report.




                                                                       F4ul
             The Corporation would also like to express its appreciation for the effort that your
     staff and the staff of KPMG made on the fiscal 2001 audit.




                                                                        eslie Lenkowsky,
                                                                       Chief Executive office
                                                                                               w


NATIONAL SERVICE: GETTING THINGS DONE
Amencorps   . Learn and Serve Amenca . National Senior Service Corps
                                                                                                      -
                                                                          1201 New York Avenue, N.W Washington, D.C. 20525
                                                                          telephone:202-606-5000 website:www.nationalservice.org
